                             Office of Inspector General
                            Corporation for National and
                                     Community Service




            AUDIT OF THE
    CORPORATION FOR NATIONAL AND
        COMMUNITY SERVICE'S
       NATIONAL SERVICE TRUST
  SCHEDULE OF FISCAL 2008 BUDGETARY
     RESOURCES AND OBLIGATIONS

           Audit Report Number 09- 02




                     Prepared by:

             CLIFTON GUNDERSON LLP
                 11710 Beltsville Drive
              Calverton , Maryland 20705




This report was issued to Corporation management on November 14, 2008.
                                           NATIONALN
                                           COMMUN ITY
                                          SERVICEtu t
                           O FFICE OF INSPECTOR GENERAL

                                             November' 4, 2008


TO :           David Eisner
               Chief Executive Officer

               Nicola Goren
               Chief of Staff



FROM:          Gerald WaJpin
               lnspector General


SUBJECT:       Fiscal Year 2008 National Service Trust Schedules
               01G Audit Report Number 09-02

Attached is the Independent Auditor's Report on the Fiscal Year 2008 National Service Trust
Schedule of Financial Position, and the related schedules of Operations and Changes in Net
Position, Budgetary Resources and Trust Obligations (Schedules). We contracted with the
independent certified public accounting firm of Clifton Gunderson LLP to audit the financial
statements of the Corporation for National and Community Service as of September 30, 2008
and 2007, and for the years then ended. The contract required that the audit be performed in
accordance with generally accepted govemment auditing standards.

In its audit, Clifton Gunderson found that the Schedules present fairly, in all material respects,
the ftnancial position of the Corporation's National Service Trust Fund for the fiscal year ended
September 30,2008.

Clifton Gunderson is responsible for the allached auditor's report, dated November 14, 2008, and
the conclusion expressed therein. The Office of Inspector General does not express an opinion
on the Schedules.

Atiachment

cc:
Frank Trinity, General Counsel
Kristin McSwain, Chief of Program Operations
William A.llderson, Deputy CFO for Financial Management
Rocco Gaudio, Deputy CfO for Planning and Program Managemen(
ShelTY Blue, Audit Resolution Coordinator
Bill Oliver, Engagement Palmer, Clifton Gunderson LLP (without attachment)

                       1201 New York venu e, NW* Suite 830, Washi ngton, DC 20525
                          202 -606-9390     *
                                        Hotl ine: 800-4 52-82 10 www.cncsig.gov  *                        US~$
                                                                                                          Freedom Corps
                          . en ior   r On), ..   Al11 eri r orn <;   * I .eil l'n ami S~rve A m ~ ri c~   Iv\cke 0 DiflurenCe. Volunteer.
~Clifto
~ Gund~rson LLP
          Certified Public Accoun tants & Consu lt ants




                                                 Independent Auditor's Report


To the Inspector General
Corporation for National and Community Service


We have audited the accompanying Schedule of Financial Position of the Corporation for
National and Community Service (Corporation) National Service Trust Fund as of September
30, 2008 and 2007, and the related Schedules of Operations and Changes in Net Position,
Budgetary Resources and Trust Obligations for the years then ended. These schedules are the
responsibility of Corporation management. Our responsibility is to express an opinion on these
schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the schedules are free of material
misstatement. An audit includes examining , on a test basis, evidence supporting the amounts
and disclosures in the schedules. An audit also includes assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall
schedule presentation. We believe that our audits provide a reasonable basis for our opinion .

The accompanying schedules were prepared for the purpose of complying with provisions of the
Strengthen AmeriCorps Program Act (Public Law 108-45), as discussed in Note A, and is not
intended to be a presentation in conformity with accounting principles generally accepted in the
United States of America.

In our opinion, the schedules referred to above present fairly, in all material respects, the
financial position of the Corporation's National Service Trust Fund as of September 30, 2008
and 2007, and the results of its operations and changes in net position, bUdgetary resources,
and obligations for the years then ended in conformity with the basis of accounting described in
Note A.




11710 BellSI/illa Drive
SIIik300
C,,/wT1ofl, MD 20705-3 106
rei: 301-93 1-2050
Eu;; 301-931-1710
www.ctiftoncpa.com                                   C ffic:e.s in 17 stares ~ () d Wa shington, DC
In accordance with Government Auditing Standards, we have also issued our reports dated
November 14, 2008, on our consideration of the Corporation's internal control over financial
reporting and on our tests of its compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of intern<)1
control over financial reporting and compliance and the results of thaI testing, not to provide an
opinion on internal control over financial reporting or compliance. Those reports are an integral
part of our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.

This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should
not be used by anyone other than these specified parties.




Calverton, Maryland
November 14, 2008
                             NATIONAL SERVICE TRUST FUND

                           SCHEDULE OF FINANCIAL POSITION
                                  as of September 30
                                          (dol/rJr$ III tJwlIsmlds)



                                                                              2008                2007
Assets
 Trust Fund Balance with Treasury                                       $-I       227         $       148
 Investments, carrying value                                                  479,634             461,842
 Investment and interest receivable                                             4,246               3,549
 Accounts receivable                                                               31                   7
Total Assets                                                            $     484,138         $   465,546

Liabilities
 Service Award Liability                                                $     303,367         $   280,597

Net Position
  Cumulative Results of Operations                                            180,771             184,949

Total Liabilities and Net Position                                            484,138         $   465,546




             The accompanyillg note" are an integml part of til est.' f inancial schedules.
                             NATIONAL SERVICE TRUST FUND

          SCHEDULE OF OPERATIONS AND CHANGES IN NET POSITION
                      For the Period Ending September 30
                                           (dollnrs      il1/lro!l~nnds)




                                                                                         2008                    2007
Revenues
 Appropriations                                                                    $      122,539            $    117,720
 Transfer in of Program Funds                                                              16,246
 Interest                                                                                  17,804                  19,563
Total Revenues                                                                            156,589                 137,283

Expenses
 AmeriCorps Program (Note 12)                                                            (160,790)               (145,688)
 Service Learning Program (Note 12)                                                                                (1,627)
 (Writeoft) / Recovery of Receivables                                                            23                     1
Total Expenses                                                                           (160,767)               (147,314)

Excess of Revenues Over Expenses                                                   $        (4,178)          $    (10,031)



Net Position
 Excess of Revenues Over Expenses                                                  $       (4,178)           $   (10,031)
 Net Position, Beginning of Year                                                          184,949                194,980
Net Position, End of Year                                                          $      180,771            $   184,949




             The accompa nying 11O tt'S {Ire   (III   inte[.,>wl pllrt oj these jillallcil1 f sclledulfs .
                              NA TIONAL SERVICE TRUST FUND

                            SCHEDULE OF TRUST OBLIGATIONS
                                   as of September 30
                                             (dollats in tltolisDuds)


                                                                                  2008                  2007
Resources
 Trust Fund Balance with Treasury                              $                       227          $        148
 lnveshnents, carrying value                                                       479,634               46t842
 lnvestment and interest receivable                                                  4,246                 3,549
 Accounts recetvable                                                                    31                      7
    Suo-total                                                                      484,138               465,546
 Less investments and receivables not available for obligation                      (8,792)               (7,629)
 Less Trust Reselve                                                                (46,697)              (46,697)
Total Resources                                                                    428,649               411,220

Unliquidated Obligations
 President's Freedom Scholarships                                                     (772)                 (994)
 Education Awards                                                                 (402,261)             (383,654)
 Il1.terest Forbearance                                                            (16)67)               (17,826)
Total Unliquidated Obligations                                                    (419,200)             (402,474)

Commitments
  Education Awards                                                                     (570)              (1,916)
  Interest Forbearance                                                                   (31)               (103)
Total Commitments                                                                      (601)              (2,019)

Funds Available for Obligation at September 30                               $        8,848         $      6,727




             The accompanying /lotes are (1)1 integral part of thesefi J1(l!1cinl sclll?rI /lles.
                             NATIONAL SERVICE TRUST FUND

                      SCHEDULE OF TRUST BUDGETARY RESOURCES
                                   as of September 30
                                          (dol/(lrs in thol/s(lllrls)



                                                                            2008                2007

Funds Available for Obligation, beginning of year                       $      6,727        $     25,390

Budgetary Resources
  Appro pri a tions
     Appropriation Received in Trust (net of rescissions)                    122,539             117,720
     Transfers in of Program Funds                                            16,246
       Subtotal                                                              138,785            117,720

  Deobligations
    Deobligation of Member Positions                                           1,399               4,557
      Subtotal                                                                 1,399               4,557

  Less: Trust Reserve                                                                             (6,930)

Total Budgetary Resources                                                    146,911             140,737

Obligations
  Education Awards                                                          (133,804)           (134,307)
  Interest Forbearance                                                        (5,677)             (4,255)
  President's Freedom Scholarships                                                                (1,626)
Total Obligations                                                           (139,481)           (140,188)

Net Change in Commitments
  Education Awards                                                             1,346               6,382
  Interest Forbearance                                                            72                (204)
Total Commitments                                                              1,418               6,178

Funds Available for Obligatoll, end of year                             $      8,848        $      6,727




              Th.e accompanying notes are an integral part of these financial sch.edules.
NOTES TO THE TRUST FUND SCHEDULES

A. Basis of Accounting
The Schedules o( Financial Posi non; Opera bons and Changes in Net Position; Trust Obligations; and
Trust Budgetary Resources have been prepared fTom the books and records of the Corporation in
accordance with the Strengthen AmeriCorps Program Act (Public Law 108-45,42 USC § 12605) for
the periods commencing October 1 and ending September 30,2008 and 2007, respectively.

The activities of the Trust are funded through the annual Deparbnents of Labor, Health and Human
Services, and Education, and Related Agencies Appropriations Act, which funds National and
Community Service Act programs. Appropriations are provided on a no-year basis for the Trust, a
fund within the Corporation used to provide education awards and student loan interest forbearance
to eligible participants. Trust appropriations do not expire with the passage of time and are retained
by th.e Corporation in the Trust until used for eligible purposes.

The Trust provides awards for AmeriCorps members serving in approved national service positions
under AmeriCorps"State and National, AmeriCorps*NCCC, and AmeriCorps*VISTA, as well as for
the AmeriCorps Education Award Program, where sponsoring organizations are responsible for
providing member subsistence and oth_er costs, and the Corporation provides an education award
and a small amount for administrative costs.

Funds fTom the Trust may be expended for the purpose of providing an education award or student
loan interesl forbearance payment and must always be paid directly to a qualified institution (coUege,
university, or other approved educational institution, or a lending instihltion holding an existing
student loan) as designated by the participant. The Trust may also expend funds for payments under
the President's Freedom Scholarship Program as authorized under various Corporation
appropriations through fiscal 2006.

The recognition of budgetary accounting transactions is essential for compliance with legal controls
over the use of Federal funds. Budgetary accounting principles are designed to recognize tl1e
obligation of ftmds upon the establishment of a properly documented legal liability, which in many
cases is different from the oCCLlrrence of an accrual-based transaction.

The Strengthen AmeriCorps Program Act directs that, beginning with fiscal 2003, Trust obligations be
recorded at the time tl1e Corporation: (1) enters into an enforceable agreement with an individual
participant to serve in a program carried out under subtitle E of title I of the National and
Community Service Act of 1990 (42 USC § 12611 et seq.), or title I of the Domeslic Volunteer Service
Act of 1973 (42 USC § 4951 ct seq.); or (2) awards a grant to (or enters into a contract or cooperative
agreement with) an enLity to carry out a program for which such a posilion may be approved under
section 123 of the Act (42 USC § 12573). The Strengthen AmeriCorps Program Act also directs that
the obligational amount be based on the estimated value of the education benefit, discounted for the
estimated enrollment, earning and usage rates, and the time value of money.

The Corporation used the following assumptions to calculate Trust obligations and budgetary needs:
full value of the education award, 100 percent enrollment rate, and earning and usage rates of
approximately 80 percent. Programs have LIp to two years after award to enroll members in
positions. Ftmds related to positions awarded to programs but not filled are periodically deobllgated
and become available for award for new program activities. TI1e Corporation deobligated $1.399 and
$4.557 rn.iIlion in fiscal 2008 and 2007, respectively, related to unused positions.
NOTES T O THE TRUST FUND SCHEDULES - CONTINUED

B.   Trust Appropriations

For fiscal year 2008 the. ational Service Trust received $122.530 million under the Consolidated
Appropriations Act, 2008 (Public Law 110-1 61). For fis cal year 2007 the Natio na.1 Servi(:e Irust
rece i vect $117.720 mlJlion under the Revised C antin u ing A ppropria bons Res olu bon, 2007 (Pu blic
Law 110-5). T he Acts also authorized the Corporation to transfer additional amounts from subtitle
C program funds to the National Service Trust if necessary to support the activities of national
service participants. The Corpof<ttion h'ansferred $16.246 miUion to the Trust under th.is provision
in fiscal 2.008. No funds were transferred in fiscal 2007.

C. Trust Reserve

As required by the Strengthen AmerlCorps Program Act the Corporation sets aside in reserve a
portion of the funds appropriated to the Trust in the event that its estimates used to calculate
obligational amo unts for education awards prove to be too low. The Corporation added $6.930
million to the reserve under this provision in fiscal 2007. No funds were added in fisclIl 2008. The
total amount helel in rese rv e under this provision was $46.697 million as of September 30,2008 lind
2007, respectively.

D, Trust Awards

Since the Corporation's inception in 1994 AmeriCorps members have earned over $1.563 billion in
education awards. The Corporation has made $1.038 billion in payments to educational institut.ions
and student loan holders on these awards. In addition, the Corporation has rnade $37.119 million in
interest forbearance payments since the program's inception. Approximately $133.316 million in
education awards earned had expired without being used as of September 30,2008. Payments for
President's Freedom Scholarships have totaled $21.754 miHion.
          APPENDIX


CORPORATION RESPONSE TO REPORT
                                   NATIOONAL&:
                                   COMMUNITY
                                   SERVICE .......I=I


MEMORANDUM

Date:

                                                       UJ';/ / /}
           November 12, 2008

To:        Gerald WaJpin, Inspector General                                      I
                                                       .h     '{a~          [jncLuocrrr
From:      William Anderson, Deputy Chief Financ'              cer

Subject:   Draft report on the results of OIG's audit of the Corporation's Fiscal Year 2008
           National Service Trust Fund Schedules


Thank you for the opportunity to comment on the draft report on the audit of the
Corporation's audit oftbe Corporation's Fiscal Year 2008 National Service Trust FWld
Schedules. I believe the comparative format instituted last year provides Congress and the
public with a clear picture of the status of Trust assets, its operations, and the manner in
which the Corporation approves and records obligations related to national service positions.

Fiscal 2008 marks the sixth year that the Corporation has prepared these schedules since first
required by the Strengthen AmeriCorps Program Act in 2003, and marks the sixth year in a
row that it has received an unqualified opinion on the schedules. These results reflect the
Corporation's commitment to sOWld financial management and the dedication of Trust staff
to continuously improve operations.




                        1201 New York Avenue, NW      *
                                                    WashinglOn. DC 20525
                              202-606-5000     *
                                              www.na[ionaiservice..org
                        Se nior Corps   * AmeriCorps * Learn and Serve America
